           Office of Inspector General




June 22, 2004

SUSAN M. PLONKEY
MANAGER, FORT WORTH DISTRICT

SUBJECT: 	Audit Report – City Letter Carrier Street Management and Route
         Inspections in the Fort Worth District (Report Number DR-AR-04-001)

This report presents the results of our self-initiated audit of City Letter Carrier
Street Management and Route Inspections in the Fort Worth District (Project
Number 04YG006DR000).
                                         Background
The Postal Service must provide timely and reliable universal delivery service while
managing costs and improving productivity to provide service at the lowest possible
price. Delivery operations constitute 43 percent of the workhours in the fiscal year
(FY) 2004 field operating budget, which is mainly attributable to office and street
workhours. Salary and benefits for rural and city carriers totaled approximately
$20 billion. Nationwide, more than 33,000 delivery units deliver mail on over
240,000 routes to service the more than 141 million delivery addresses. In the
FY 2004 field budget, the Postal Service established a goal to reduce delivery
workhours by 11.2 million.

The Southwest Area consists of 711 delivery units. The Southwest Area’s budget
performance goal is to reduce delivery workhours by 891,000. The Fort Worth District
has 130 city delivery units, with actual street workhours of 1,021,611, exceeding
planned street workhours by 3,399 as February 27, 2004.

The Delivery Operations Information System (DOIS), deployed in FY 2002, was
designed to provide actionable data to the delivery unit supervisors/managers to assist
them in managing the office activities, planning street activities, and managing route
inspection and adjustment activities.

                              Objective, Scope, and Methodology
The overall objective was to review the efficiency and effectiveness of street
management and route inspections. Specifically, we determined whether (1) route

   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
City Letter Carrier Street Management and                                                             DR-AR-04-001
 Route Inspections in the Forth Worth District


inspections are being conducted to maintain routes at eight hours, and (2) delivery unit
supervisors are monitoring city delivery letter carriers street time to conserve workhours.
We visited two delivery units in the Fort Worth District, Riverside Station and Oakwood
Station. We interviewed managers and employees, reviewed documentation and
applicable policies and procedures, and analyzed data in DOIS for FYs 2003 through
2004. Although we relied on data obtained from DOIS, we did not test the validity of the
data and controls over the system. Because of an Office of Inspector General (OIG)
initiative to combine reviews of city letter carrier office preparation and street functions
into a single review, we curtailed this review.

This audit was conducted from February through June 2004, in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.

                                         Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

                                               Audit Results
Street management and route inspections were generally efficient and effective at the
Oakwood and Riverside Stations.1 Delivery unit supervisors monitored city delivery
carrier’s street time to conserve workhours by performing at least the minimum number
of required street observations. However, while a route inspection was conducted at
the Oakwood Station delivery unit, post route adjustment procedures were not followed
to maintain routes at eight hours.

Post Route Adjustment Follow-up Procedures

Route inspections were conducted at the Oakwood Station; however, post route
adjustment procedures were not followed. Specifically, the Oakwood Station delivery
unit did not conduct an office count and full street observation on all 21 routes after the
initial 30-day evaluation period as required by the Southwest Area Route Adjustment
Follow-up Procedures, dated June 2001 (revised November 2003). The procedures
require the unit to complete an office count and a full street inspection the first 30 days
after the route evaluation process. The post route adjustment follow-up procedures
consist of tracking daily, the total variances between the carriers’ total projected
(earned) and total actual (worked) workhours for each route.



1
 We did not review route inspection data at the Riverside Station delivery unit because a route inspection had not
been conducted in two years and the unit was scheduled for a new inspection during March 2004.



                                                          2
City Letter Carrier Street Management and                                       DR-AR-04-001
 Route Inspections in the Forth Worth District


A route inspection was conducted at the Oakwood Station during April 2003 and
adjustments to the routes resulting from the inspection were implemented on June 14,
2003. The post route adjustment follow-up procedures began on June 14, 2003, and
were composed of three consecutive 30-day evaluation periods ending on
September 11, 2003. The                         did not evaluate the results of the initial
30-day period to determine which routes should be placed in one of the following
three categories: (1) routes in adjustment, (2) routes out of adjustment due to workload
or adjustment issues, or (3) routes with carrier performance issues that should be
evaluated for a longer time. Instead, the                    continued to track all routes
for an additional 60 days but never categorized the routes or requested any minor
adjustments.

The                    was not fully aware of all the post route adjustment procedures
contained in the Southwest Area Route Adjustment Follow-up Procedures. Specifically,
he was not knowledgeable that an office count and a full street observation were
required and that he could request minor route adjustments after the initial 30-day
period. He believed the carrier had 90 days to learn the route, and during this time, no
adjustments could be requested. According to district delivery management, minor
route adjustments could and should be requested, if needed, during this 90-day
timeframe.

Route inspections are observations of the carrier’s office and street time for one or more
days. The inspection includes counting and recording the mail handled, and the time
used for each function. Route inspections are conducted between the first week of
September and May 31, excluding December.

Postal Service Handbook M-39, Management of Delivery Services, requires the delivery
unit to evaluate the routes to determine if the adjustments implemented have met their
objective. Route adjustments, which are implemented from a route inspection, are
designed so regular routes will be as close to eight hours of daily work as possible. The
Southwest Area established Route Adjustment Follow-up Procedures, which state that
after the first 30 days of the route evaluation process, an office count and a full street
inspection will be completed. Management will review the results of both with the
carrier. These procedures ensure that post route adjustment evaluations are
standardized to identify the need for minor route adjustments and provide a process for
identifying and correcting performance deficiencies.

By following Southwest Area Route Adjustment Follow-up Procedures, routes with
workload or adjustment issues can be considered for minor route adjustments and
corrective action can be taken on routes with carrier performance issues to maintain
routes at eight hours.




                                                 3
City Letter Carrier Street Management and                                          DR-AR-04-001
 Route Inspections in the Forth Worth District


Recommendation

We recommend the Manager, Fort Worth District:

       1. Train the Oakwood Station                                     on the
          Southwest Area’s Route Adjustment Follow-up Procedures to ensure routes
          are maintained at eight hours.

Management’s Comments

Management agreed with our recommendation and provided documentation of
correspondence previously sent to Oakwood Station management concerning Route
Adjustment Follow-up Procedures. The District Manager stated they were not certain
why the delivery supervisor at Oakwood Station was not fully aware of the follow-up
procedures other than a communication gap. In addition, the District Manager provided
documentation of training on these procedures given to the delivery unit supervisor on
May 17, 2004. Also, the District Manager stated that future training would be formally
documented to ensure a recurrence is prevented. Management’s comments, in their
entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. The Fort Worth
District provided documentation that Route Adjustment Follow-up Procedures were sent
to the Oakwood Station. We found no documentation that the procedures were
specifically shared with the                         or documentation indicating that
the                    was trained on the procedures during the period when the post
route follow-up procedures were conducted. Subsequent to our audit, the district
provided training to the                  on May 17, 2004. Management’s actions
taken and planned should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Debbie Pettitt, Director,
Delivery and Retail, at (404) 507-8329 or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment




                                                 4
City Letter Carrier Street Management and            DR-AR-04-001
 Route Inspections in the Forth Worth District


cc: 	 John A. Rapp
      James F. Taylor
      Joseph K. Moore




                                                 5
City Letter Carrier Street Management and             DR-AR-04-001
 Route Inspections in the Forth Worth District


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                 6

